                            Federal Register / Vol. 68, No. 118 / Thursday, June 19, 2003 / Notices                                  36827

 Weight      Criteria                                                           Description

10% ......        5      Budget—Clarity and accuracy of program costs, and cost justification for the entire grant period.
100% Total Weight



Reporting Requirements                            ACTION: Notice of proposed revisions to           SUPPLEMENTARY INFORMATION:      This
   (1) Progress Report—Program progress           existing Privacy Act systems of records.          notice is in accordance with the Privacy
reports will be required semiannually.                                                              Act requirement that agencies publish
                                                  SUMMARY: The Office of Inspector                  their amended systems of records in the
These reports will include a brief
description of a comparison of actual             General proposes to revise both the               Federal Register when there is a
accomplishments to the goals                      existing system of records, entitled              revision, change, or addition. The OIG
established for the period, reasons for           ‘‘Criminal Investigative Files’’ (09–90–          has reviewed its systems of records and
slippage and other pertinent                      0003), last updated on November 2,                has determined that both its
information as required. A final report           1990 (55 FR 46248), and the existing              Investigation Case Files record system
is due 90 days after expiration of the            system of records, entitled ‘‘Civil and           and its Civil and Administrative
project/budget period.                            Administrative Investigative Files’’ (09–         Investigative Files must be revised to
   (2) Financial Status Report—A                  90–0100), last updated on September               add a routine use in order to comply
semiannual financial status report will           30, 1982 (47 FR 43190). These systems             with the Homeland Security Act of
be submitted 30 days after the end of the         of records, maintained by the OIG, are            2002. Specifically, section 812(7) of the
half-year. Final financial status reports         being revised to comply with                      Act states that: ‘‘[T]o ensure the proper
are due 90 days after expiration of the           requirements established by the                   exercise of the law enforcement powers
project/budget period. Standard Form              Homeland Security Act of 2002 (Pub. L.            authorized by the subsection, the Office
269 (long form) will be used for                  107–296; November 25, 2002). We                   of Inspector General described in
financial reporting.                              intend to revise these systems by adding          paragraph (3) shall, not later than 180
   Grant Administration Requirements:             a new routine use to allow disclosure of          days after the enactment of this
Grants are administered in accordance             information to authorized officials               subsection, collectively enter into a
with the following documents:                     within the President’s Council on                 memorandum of understanding to
   (1) 45 CFR Part 92. Department of              Integrity and Efficiency (PCIE), who are          establish an external review process for
Health and Human Services, Uniform                charged with the responsibility for               ensuring that adequate internal
Administrative Requirements for Grants            conducting qualitative assessment                 safeguards and management procedures
and Cooperative Agreements to State               reviews of investigative operations.              continue to exist with each Office and
and Local Governments, or 45 CFR Part             DATES: Effective Date: These revisions            within any Office that later receives an
74, Administration of Grants to Non-              will become effective, without further            authorization under paragraph (2). The
profit recipients.                                notice, on August 4, 2003, unless                 review process shall be established in
   (2) Public Health Service Grants               comments received on or before that               consultation with the Attorney General,
Policy Statement, and                             date result in a contrary determination.          who shall be provided with a copy of
   (3) Appropriate Cost Principles: OMB                                                             the memorandum of understanding that
Circular A–87, State and Local                       Comment date: Comments on these
                                                  revisions will be considered if we                establishes the review process. Under
Governments, or OMB Circular A–122,                                                                 the review process, the exercise of the
Nonprofit Organizations.                          receive them at the address provided
                                                  below no later than 5 p.m. on July 21,            law enforcement powers by each Office
   Results of the Review: Successful                                                                of Inspector General shall be reviewed
applicants are notified through the               2003. Interested persons may submit
                                                  written comments on this proposal to              periodically by another Office of
official Notice of Grant Award (NGA)                                                                Inspector General or by a committee of
document. The NGA will state the                  the address indicated below.
                                                                                                    Inspectors General. The results of each
amount of Federal funds awarded, the              ADDRESSES: Please mail or deliver                 review shall be communicated in
purpose of the grant, the terms and               written comments to the following                 writing to the applicable Inspector
conditions of the grant award, the                address: Office of Inspector General,             General and to the Attorney General.’’
effective date of the award, the project          Office of Counsel to the Inspector                  Specifically, we are proposing to
period, and the budget period.                    General, 330 Independence Avenue,                 amend the section for ‘‘Routine uses of
  Dated: June 12, 2003.                           SW., Washington, DC 20201, Attention:             records maintained in the system,
Charles W. Grim,                                  OIG–0503–N.                                       including categories of users and
Assistant Surgeon General, Interim Director,         We do not accept comments by                   purposes of such uses’’ in both systems
Indian Health Service.                            facsimile (FAX) transmission. In                  of records (1) by adding a new
[FR Doc. 03–15507 Filed 6–18–03; 8:45 am]         commenting, please refer to file code             paragraph n. to the current Criminal
BILLING CODE 4160–16–M
                                                  OIG–0503–N. Comments received                     Investigative Files; and (2) by adding a
                                                  timely will be available for public               new paragraph (12) to the current Civil
                                                  inspection as they are received,                  and Administrative Investigative Files.
DEPARTMENT OF HEALTH AND                          generally beginning approximately 2               The additional routine use paragraphs
HUMAN SERVICES                                    weeks after publication of a document,            will allow the disclosure of information
                                                  in Room 5541 of the Office of Inspector           to authorized officials within the PCIE,
Office of Inspector General                       General at 330 Independence Avenue,               the Department of Justice, and the
                                                  SW., Washington, DC, on Monday                    Federal Bureau of Investigation, as
Privacy Act of 1974; Proposed                     through Friday of each week from 8 a.m.           necessary, for the purpose of conducting
Revisions to the OIG’s Privacy Act                to 4:30 p.m.                                      qualitative assessment reviews of the
Systems of Records
                                                  FOR FURTHER INFORMATION CONTACT: Joel             OIG’s investigative operations to ensure
AGENCY: Office of Inspector General               Schaer, Office of Counsel to the                  that adequate internal safeguards and
(OIG), HHS.                                       Inspector General, (202) 619–0335.                management procedures are maintained.
36828                    Federal Register / Vol. 68, No. 118 / Thursday, June 19, 2003 / Notices

   Accordingly, both systems of records      DEPARTMENT OF HOUSING AND                    respond; including through the use of
would be amended as set forth below:         URBAN DEVELOPMENT                            appropriate automated collection
   1. The Criminal Investigative Files of                                                 techniques or other forms of information
                                             [Docket No. FR–4816–N–02]
the Inspector General (09–90–0003)                                                        technology, e.g., permitting electronic
would be amended by adding a new             Notice of Proposed Information               submission of responses.
                                             Collection; Comment Request;                   This notice also lists the following
paragraph n. under the subheading for                                                     information:
‘‘Routine Uses of Records Maintained in      Affirmative Fair Housing Marketing
                                                                                            Title of Proposal: Affirmative Fair
the System, Including Categories of          Plan
                                                                                          Housing Marketing Plan.
Users and Purpose of Such Uses’’ to          AGENCY: Office of the Assistant                OMB Control Number: 2529–0013.
read as follows:                             Secretary for Fair Housing and Equal           Description of the need for the
                                             Opportunity, HUD.                            information and proposed use: HUD
ROUTINE USES OF RECORDS MAINTAINED IN THE    ACTION: Notice.                              uses this information to assess the
SYSTEM, INCLUDING CATEGORIES OF USERS AND                                                 adequacy of the applicant’s proposed
PURPOSE OF SUCH USES:                        SUMMARY: The proposed information            actions to carry out the Affirmative Fair
*     *     *     *     *                    collection requirement described below       Housing Marketing requirements of 24
                                             will be submitted to the Office of           CFR 200.600 and review compliance
  n. A record may be disclosed to any        Management and Budget (OMB) for              with these requirements under 24 CFR
official charged with the responsibility     review, as required by the Paperwork         part 108, the AFHM Compliance
to conduct qualitative assessment            Reduction Act. The Department is             Regulations.
reviews of internal safeguards and           soliciting public comments on the              Agency form numbers, if applicable:
management procedures employed in            subject proposal.                            HUD 935.2
investigative operations. This disclosure    DATES: Comments Due Date: August 18,           Members of affected public:
category includes members of the             2003.                                        Applicants for mortgage insurance
President’s Council on Integrity and         ADDRESSES: Interested persons are
                                                                                          under the Department’s insured single
Efficiency and officials and                 invited to submit comments regarding         family and multifamily programs.
administrative staff within their                                                           Estimation of the total number of
                                             this proposal. Comments should refer to
investigative chain of command, as well                                                   hours needed to prepare the information
                                             the proposal by name and/or OMB
as authorized officials of the Department                                                 collection including number of
                                             Control Number and should be sent to:
of Justice and the Federal Bureau of                                                      respondents, frequency of response, and
                                             Surrell Silverman, Reports Liaison
Investigation.                                                                            hours of response: On an annual basis,
                                             Officer, Fair Housing and Equal
                                                                                          3,006 respondents, 1 response per
  2. The Civil and Administrative            Opportunity, Department of Housing
                                                                                          respondent, 3,006 total responses. Each
Investigative Files of the Inspector         and Urban Development, 451 7th Street,
                                                                                          response should take approximately 3
General (09–90–0100) would be                NW., Room 5216, Washington, DC
                                                                                          hours to complete for a total of 9,018
amended by adding a new paragraph 12.        20410–5000.
                                                                                          burden hours.
under the subheading for ‘‘Routine Uses      FOR FURTHER INFORMATION CONTACT:               Status of the proposed information
of Records Maintained in the System,         Gwendolyn V. Jackson, Department of          collection: Extension of the expiration
Including Categories of Users and            Housing and Urban Development, 451           date of a currently approved collection
Purpose of Such Uses’’ to read as            7th Street, SW., Room 5222, (202) 708–       without any change in the substance or
                                             2288 (this is not a toll-free number) for    in the method of collection.
follows:
                                             copies of the proposed forms and other
                                             available documents. Hearing- or                Authority: Section 3506 of the Paperwork
ROUTINE USES OF RECORDS MAINTAINED IN THE                                                 Reduction Act of 1995, 44 U.S.C. chapter 35,
SYSTEM, INCLUDING CATEGORIES OF USERS AND
                                             speech-impaired individuals may access
                                                                                          is amended.
PURPOSE OF SUCH USES:                        this number TTY by calling the toll-free
                                             Federal Information Relay Service at 1–        Dated: June 10, 2003.
  These records may be used as follows:      800–877–8399.                                Carolyn Y. Peoples,
*     *     *    *     *                     SUPPLEMENTARY INFORMATION: The               Assistant Secretary for Fair Housing and
                                             Department is submitting the proposed        Equal Opportunity.
  (12) A record may be disclosed to any
                                             information collection to OMB for            [FR Doc. 03–15445 Filed 6–18–03; 8:45 am]
official charged with the responsibility
to conduct qualitative assessment            review, as required by the Paperwork         BILLING CODE 4210–72–M

reviews of internal safeguards and           Reduction Act of 1995 (44 U.S.C.
                                             chapter 35, as amended).
management procedures employed in
                                               The notice is soliciting comments          DEPARTMENT OF THE INTERIOR
investigative operations. This disclosure    from members of the public and affected
category includes members of the             agencies concerning the proposed             Fish and Wildlife Service
President’s Council on Integrity and         collection of information to: (1) Evaluate
Efficiency and officials and                 whether the proposed collection of           Availability of a Draft Recovery Plan
administrative staff within their            information is necessary for the proper      for the Lake Erie Water Snake (Nerodia
investigative chain of command, as well      performance of the functions of the          sipedon insularum) for Review and
as authorized officials of the Department    agency, including whether the                Comment
of Justice and the Federal Bureau of         information will have practical utility;     AGENCY: Fish and Wildlife Service,
Investigation.                               (2) evaluate the accuracy of the agency’s    Interior.
  Dated: June 9, 2003.                       estimate of the burden of the proposed       ACTION: Notice of document availability.
Dara Corrigan,
                                             collection of information; (3) enhance
                                             the quality, utility, and clarity of the     SUMMARY: The U.S. Fish and Wildlife
Acting Principal Deputy Inspector General.   information to be collected; and (4)         Service (Service) announces availability
[FR Doc. 03–15511 Filed 6–18–03; 8:45 am]    minimize the burden of the collection of     for public review of a draft recovery
BILLING CODE 4152–01–P                       information on those who are to              plan for the Lake Erie water snake
